               CLOSEOUT MEMORANDUM FOR M-01030008
We received an anonymous letter alleging that the subject,' the PI on an NSF award:
misrepresented her degree in the award application. In addition, this misrepresentation of
the subject's degree allegedly resulted in her receiving more money to work on this and
other NSF awards.
                                      ..
The subject's "Biographical Sketch" in the award, and on earlier NSF awards,3 stated that
she had a "Ph.D. (ABD)" (All But Dissertation) from a large ~niversity.~         The registrar at
the university c o n f i i e d that, although the subject was on the Ph.D. track and had
completed many graduate courses, she did not complete a dissertation and, therefore, did
not receive a Ph.D degree. The NSF database, however, incorrectly indicated that the
subject's highest degree was a Ph.D.

The NSF program manager5for the subject's active award explained that a PbD. degree
is not required for the PI on her particular award. He said that PIS are evaluated on a .
case-by-case basis prior to recommending this type of an award. He said he knew the
subject had a "Ph.D. (ABD)" and that, on a site visit to the university prior to the award,
he met the subject and determined that she was the best person to manage the project.

We observed that the subject referred to herself as "doctor" on her College's homepage
and was listed on other government databases6 as having a Ph.D. There was no evidence,
however, that the subject misrepresented her degree on any of her NSF forms. Further,
our review showed that she received no money from any of the NSF awards for
managing them. We concluded that the subject had not seriously deviated from accepted
practice. However, because we were concerned that the subject's representation of the
degree could conceivably cause a problem in the future, we called her and discussed this
matter with her.

This case is closed and no further action will be taken.

cc: Investigations, IG




                                           Page 1 of 1
